HHS/OIG, Audit -"Review of Medicare Part A Administrative Costs Claimed By Horizon Blue Cross Blue Shield of New Jersey for the Period October 1, 1997 through July 31, 2000,"(A-02-01-01009)
Department
of Health and Human Services
"Review of Medicare Part A Administrative Costs Claimed By Horizon Blue Cross Blue Shield of New Jersey for the
Period October 1, 1997 through July 31, 2000," (A-02-01-01009)
January 6, 2003
Complete
Text of Report is available in PDF format (4.93 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether administrative costs claimed by Horizon Blue Cross Blue Shield of
New Jersey (Horizon) on its Medicare Part A Final Administrative Cost Proposals (FACP) covering the period October 1, 1997
through July 31, 2000 were allowable, allocable and reasonable.  We found that Horizons reported administrative costs
included  $12,000 of employee training costs for services that did not benefit Medicare, and  $1,651 of excessive
executive salaries and fringe benefits.  We recommended that costs claimed by Horizon for the period October 1, 1997
through July 31, 2000 be reduced by $13,651.